No.
IN THE SUPREME COURT OF THE UNITED STATES
________________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
PETITIONER
v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 9TH day of September 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 7463 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 9, 2020.
Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES
CITIZENS FOR RESPONSIBILITY AND ETHICS IN WASHINGTON, ET AL.
Deepak Gupta, Esq.
Gupta Wessler PLLC
Citizens for Responsibility and Ethics in Washington et al
1900 L Street, NW
Washington, DC 20036
617-286-2392
matt@guptawessler.com
Joseph Sellers, Attorney
Cohen Milstein Sellers & Toll PLLC
Suite 500
1100 New York Avenue, NW
Washington, DC 20005
202-408-4600
jsellers@cohenmilstein.com

Andrea Likwornik Weiss
Becker, Glynn, Muffly, Chassin
& Hosinski LLP
16th Floor
299 Park Avenue
New York, NY 10171
212-888-3033
aweiss@beckerglynn.com
Todd Sunhwae Kim, Esq.
Reed Smith LLP
1301 K Street, NW
Washington, DC 20005

412-288-3131

www.reedsmith.com
Devin Michael Misour, Esq.
Reed Smith LLP
Reed Smith Centre
225 5th Avenue
Pittsburgh, PA 15222
412-288-3091
www.reedsmith.com

Colin E. Wrabley
Reed Smith LLP
Suite 1200
Reed Smith Centre
225 5th Avenue
Pittsburgh, PA 15222
412-288-3548
www.reedsmith.com
M. Patrick Yingling, Esq.,
Todd Sunhwae Kim
Reed Smith LLP
40th Floor
10 South Wacker Drive
Chicago, IL 60606
www.reedsmith.com
Rebecca L. Brown et al
Katharine M. Mapes, Attorney
Spiegel & McDiarmid LLP
1875 Eye Street, NW
Washington, DC 20006

202-879-3578

katharine.mapes@spiegelmcd.com
Jeffrey Michael Bayne, Esq., Spiegel & McDiarmid LLP
Suite 700
1875 Eye Street, NW
Washington, DC 20006
202-879-4094
jeffrey.bayne@spiegelmcd.com
Phillip Spector, Esq., Messing & Spector LLP
Suite 1414
1200 Steuart Street
Baltimore, MD 21230
202-277-8173
ps@messingspector.com

Jed H. Shugerman et al
H. Laddie Montague, Jr., Esq., Berger & Montague, P.C.
1622 Locust Street
Philadelphia, PA 19103
215-875-3010
hlmontague@bm.net
Richard Blumenthal, Senator et al
Anna Benvenutti Hoffmann, Esq., Neufeld Scheck & Brustin, LLP
99 Hudson Street
New York, NY 10013
212-965-9081
Brianne Jenna Gorod, Esq., Constitutional Accountability Center
1200 18th Street, NW
Washington, DC 20036
Don Fox et al
Tejinder Singh, Esq., Goldstein & Russell, P.C.
7475 Wisconsin Avenue
Bethesda, MD 20814
202-362-0636
tsingh@goldsteinrussell.com
Seth Barrett Tillman
Robert William Ray, Esq.,
Thompson & Knight LLP
900 3rd Avenue
New York, NY 10022
Joshua Blackman, Esq., Counsel
Josh Blackman LLC
1303 San Jacinto Street
Houston, TX 77002
Carrie Severino, Esq., Judicial Education Project
Suite 400
1455 Pennsylvania Avenue, NW
Washington, DC 20004
616-915-8180

